No. 20-891
In the

Supreme Court of the United States
AMERICAN AXLE & MANUFACTURING, INC.,
Petitioner,
v.
NEAPCO HOLDINGS LLC AND
NEAPCO DRIVELINES LLC.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

BRIEF OF THE CHICAGO PATENT
ATTORNEYS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS
Kevin E. Noonan, Ph.D.
Counsel of Record
Michael S. Borella, Ph.D.
A aron V. Gin, Ph.D.
A dnan M. Obissi
McDonnell Boehnen Hulbert & Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, IL 60606
(312) 913-0001
noonan@mbhb.com
Counsel for Amici Curiae
301391

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

The Federal Circuit’s Order Denying
Rehearing en banc Evinces a Troubling
Divide in How Judges Interpret and
Apply the Alice/Mayo Analysis  . . . . . . . . . . . . . . 5

II. The Federal Circuit’s Misapplication
of the Alice/Mayo Framework Would
Render Invalid Patents that have Stood as
Pillars of Technological Innovation . . . . . . . . . . . 9
A. Bell’s Telegraphy Patent would have
been Considered Invalid under Recent
Federal Circuit Application of § 101  . . . . . 10
B. Edison’s Light Bulb Patent would have
been Considered Invalid Under Recent
Federal Circuit Application of § 101  . . . . . 15
III. This is an Appropriate Case to Provide
Clarity and Guidance to Lower Courts . . . . . . . 18

ii
Table of Contents
Page
A. In American Axle, the Federal Circuit
has provided a way to circumvent
the Alice/Mayo framework . . . . . . . . . . . . . 20
B. This case represents an opportune
vehicle to provide clarity in proper
application of § 101 . . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Alice Corp. Pty. v. CLS Bank Int’l,
573 U.S. 208 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Ariosa Diagnostics, Inc. v. Sequenom, Inc.,
788 F.3d 1371 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . . 4
Athena Diagnostics, Inc. v.
Mayo Collaborative Servs., LLC,
927 F.3d 1333 (Fed. Cir. 2019) . . . . . . . . . . . . . . .  4, 8-9
Bascom Global Internet Servs., Inc. v.
AT&T Mobility LLC,
827 F.3d 1341 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 14
Bilski v. Kappos,
561 U.S. 593 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Core Wireless Licensing S.A.R.L. v.
LG Electronics, Inc.,
880 F.3d 1356 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 19
DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014) . . . . . . . . . . . . . . . . . . 19
Diamond v. Chakrabarty,
447 U.S. 303 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Diamond v. Diehr,
450 U.S. 175 (1981) . . . . . . . . . . . . . . . . . . . . . . . passim

iv
Cited Authorities
Page
Funk Bros. Seed Co. v. Kalo Inoculant Co.,
333 U.S. 127 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
In re Marosi,
710 F.2d 799, 218 USPQ 289 (Fed. Cir. 1983)  . . . . . 13
In re Okuzawa,
537 F.2d 545, 190 USPQ 464 (CCPA 1976) . . . . . . . . 13
Le Roy v. Tatham,
14 How. 156 (1853) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Mayo Collaborative Servs. v.
Prometheus Labs., Inc.,
566 U.S. 66 (2012) . . . . . . . . . . . . . . . . . . . . . . . . passim
McRO, Inc. v.
Bandai Namco Games America Inc.,
837 F.3d 1299 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 19
Move, Inc. v. Real Estate Alliance Ltd.,
721 Fed. Appx. 950 (Fed. Cir. 2018)  . . . . . . . . . . . . . 19
O’Reilly v. Morse,
56 U.S. (15 How.) 62, 14 L. Ed. 601 (1853) . . . . passim
Parker v. Flook,
437 U.S. 584 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 8
Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc.,
827 F.3d 1042 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . .  7-8

v
Cited Authorities
Page
RecogniCorp, LLC v. Nintendo Co., Ltd.,
855 F.3d 132 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . . 19
SRI International, Inc. v. Cisco Systems, Inc.,
930 F.3d 1295 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 14
Thales Visionix Inc. v. United States,
850 F.3d 1343 (Fed. Cir. 2017) . . . . . . . . . . . . . . . . . . 14
Trading Technologies International, Inc. v.
CQG, INC.,
675 Fed. Appx. 1001 (Fed. Cir. 2017)  . . . . . . . . . . . . 19
Trading Technologies International, Inc. v.
IBG LLC,
921 F.3d 1084 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 19
Trading Technologies International, Inc. v.
IBG LLC,
921 F.3d 1378 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 19
Ultramercial, Inc. v. Hulu, LLC,
772 F.3d 709 (Fed. Cir. 2014) . . . . . . . . . . . . . . . . . . . 19

Statutes
35 U.S.C. § 101  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Sup. Ct. R. 37.2(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

vi
Cited Authorities
Page
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional Provisions
U.S. Const. art. I, § 8, cl. 8  . . . . . . . . . . . . . . . . . . . . . . . . 5
Patents
U.S. Patent No. 7,774,911 . . . . . . . . . . . . . . . . .  9, 12, 17, 21
Letters Patent No. 174,465 . . . . . . . . . . . . . . . . . . . . . . . 10
Letters Patent No. 223,898 . . . . . . . . . . . . . . . . . . . .  15, 17
Other Provisions
USPTO Manual of Patent Examining Procedure,
§ 2106.04(II) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

1
INTEREST OF AMICI CURIAE
The amici curiae are patent practitioners who
regularly prosecute and litigate U.S. patents. The amici
curiae are concerned with preserving the integrity of a
patent system that fosters innovation, and the companies
that commercialize such innovation in the marketplace.1,2
SUMMARY OF THE ARGUMENT
This Court has repeatedly warned against overbroad
interpretations of the judicial exceptions to patent
eligibility lest they “eviscerate” or “swallow all of patent
law.” Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 566 U.S. 66, 71 (2012) and Alice Corp. Pty. v. CLS
Bank Int’l, 573 U.S. 208, 217 (2014). And yet the Federal
Circuit has done just that in multiple opinions, including
its recent decision that found that American Axle’s method
of manufacturing vibration-damping driveline shafts had
failed to satisfy 35 U.S.C. § 101. In doing so, the panel
substituted its own patent eligibility test in place of the
one set forth by this Court in Alice.
This failure to follow precedent has a remarkably high
cost. Under the panel’s new test, subject matter eligibility
of an invention that relies on unclaimed, underlying laws of
1. No party’s counsel authored this brief in whole or part;
no party or party’s counsel contributed money intended to fund
preparing or submitting the brief; and no person other than amici
or counsel for amici contributed money intended to fund preparing
or submitting the brief. Sup. Ct. R. 37.6.
2. Counsel for the respective parties were provided timely
notice and consented to the filing of this brief. Sup. Ct. R. 37.2(a).

2
physics - in other words, any invention - can be called into
question. This Court has recognized that “all inventions ...
embody, use, reflect, rest upon, or apply laws of nature,”
and that inventions are not rendered ineligible for that
reason alone. Alice, 573 U.S. at 217. But here the Federal
Circuit has improperly asserted its own flawed reasoning
that effectively reverses the letter and spirit of the law set
forth in Alice and its predecessors. And half of the judges
on that court disagree with this reasoning though they
are now bound to follow it.
The pending petition for writ of certiorari identifies
these and other issues that fundamentally affect the
eligibility of patents under § 101 and impact the proper
application of this Court’s jurisprudence. These issues
are of substantial importance to American innovation,
including as here advancements in manufacturing
techniques, particularly those in mechanical, electromechanical, and materials science applications. These
issues are not limited to the American Axle decision;
the Federal Circuit has repeatedly failed to apply this
Court’s patent eligibility test in a logical, reasonable, or
consistent fashion. Such chaotic jurisprudence threatens
to fundamentally damage U.S. patent law.
To illustrate the resulting ambiguity surrounding the
validity of technological patents, amici curiae identify two
historical patents that, although appropriately touted for
over a century as being hallmarks of innovation, would
nevertheless be invalidated under the Federal Circuit’s
misguided application of this Court’s subject matter
eligibility framework.

3
The Federal Circuit is crying out for this Court’s
guidance, as illustrated in their decision denying
American Axle’s petition for rehearing en banc. There, the
judges demonstrated their deep, seemingly irreparable
divisions regarding proper application of this Court’s
test for determining patent eligibility under § 101. Their
intra-circuit split is unequivocal – the differing opinions
resulted in only six judges agreeing with the per curiam
decision to deny rehearing en banc and an equal number
of judges dissenting, producing no less than five separate
opinions to articulate their divergent views.
In particular, these factions argue about whether
the claims at issue are “directed to” a law of nature,
and whether the majority introduced yet another test
for determining subject matter eligibility: the “nothing
more” test. The panel majority opinion compared the
circumstances of this case to those in O’Reilly v. Morse, 56
U.S. (15 How.) 62, 14 L. Ed. 601 (1853), and held that one
of American Axle’s claims was directed to Hooke’s Law
and “nothing more.” Pet App., 161a (Dyk, J., concurring
in denial of rehearing en banc). The six judges dissenting
from per curiam denial of rehearing en banc contended
that their colleagues supporting denial overstepped by
“hold[ing] that when technological advance is claimed too
broadly, and the claims draw on scientific principles, the
subject matter is barred ‘at the threshold’ from access
to patenting.” Pet App., 174a (Newman, J., dissenting in
denial of rehearing en banc).
The five opinions demonstrate an irreconcilable divide
in the Federal Circuit’s understanding of how (or whether)
this Court’s framework set forth in Mayo and Alice should
be applied to patent claims. And this problem is neither

4
unique to the Federal Circuit’s American Axle decision
nor of recent vintage. In Ariosa Diagnostics, Inc. v.
Sequenom, Inc., four Federal Circuit judges argued for
the court to rehear the panel decision invalidating claims
under § 101. 788 F.3d 1371 (Fed. Cir. 2015). By the time
of the Athena Diagnostics, Inc. v. Mayo Collaborative
Servs., LLC, decision, five judges were convinced the
court had erred in not rehearing the panel decision to
invalidate claims on subject matter eligibility grounds.
927 F.3d 1333 (Fed. Cir. 2019). Now, six judges of the
court vigorously argued that invalidating American Axle’s
claims required en banc review. The pattern is clear – an
increasingly significant proportion of the Federal Circuit
believes that its jurisprudence is in error and needs this
Court’s correction.
Amici curiae submit that the dissenting judges have
the better argument, and that the Federal Circuit has
both misapprehended and misapplied the legal standard
for patent eligibility of claims. Trapped by its own errors,
the Federal Circuit has departed from this Court’s Alice
and Mayo decisions, instead relying on a thin comparison
of the claims at issue to the ones in O’Reilly. In creating
the “nothing more” test, the panel majority added another
discrete “rule” to the increasingly confused jumble of
holdings and dicta regarding § 101 since Mayo and Alice.
In view of the “nothing more” test, patentees can have
little confidence in the validity of any claim that relates
in any way to applying any law of nature. Indeed, amici
curiae agree with the dissenting judges that application
of this new test calls into question “whether foundational
inventions like the telegraph, telephone, light bulb, and
airplane—all of which employ laws of nature—would

5
have been ineligible for patenting under the majority’s
revised approach.” Pet App., 191a (Stoll, J., dissenting).
This uncertainty puts a significant strain on the incentives
for innovation that the Patent Act attempts to promote.
For at least these reasons, amici curiae urge this Court
to grant the petition for a writ of certiorari.
ARGUMENT
I.

The Federal Circuit’s Order Denying Rehearing
en banc Evinces a Troubling Divide in How Judges
Interpret and Apply the Alice/Mayo Analysis

To promote the progress of science and useful arts,
inventors of “any new and useful process, machine,
manufacture, or composition of matter, or any new and
useful improvement thereof” may obtain a patent – a
limited right to exclude others from practicing their
claimed inventions. U.S. Const. art. I, § 8, cl. 8; 35 U.S.C.
§ 101.
While generally accepting the rule that “anything
under the sun made by man” is eligible for patenting, this
Court has carved out certain exceptions from the genus of
“new and useful” patent eligible inventions. Diamond v.
Chakrabarty, 447 U.S. 303, 309 (1980). Specifically, claims
directed merely to laws of nature, natural phenomena,
and abstract ideas (hereinafter collectively “the judicial
exceptions”) are outside the scope of what is patent
eligible. Diamond v. Diehr, 450 U.S. 175, 185 (1981); see
also Bilski v. Kappos, 561 U.S. 593, 601 (2010); Diamond
v. Chakrabarty, 447 U.S. at 309; O’Reilly, 15 How. at
112–120; Le Roy v. Tatham, 14 How. 156, 175 (1853).

6
In Alice, this Court set forth a two-part test designed
to distinguish between patent eligible subject matter and
these patent ineligible judicial exceptions. The first part
of the test requires a determination of whether a claim is
“directed to one of [the] patent-ineligible concepts,” i.e.,
the judicial exceptions. 573 U.S. at 217-18. If the answer
to this initial determination is “yes”, then the second part
of the test asks whether the claim elements contain an
“inventive concept” sufficient to “‘transform the nature
of the claim’ into a patent-eligible application.” Id. at 217
(quoting Mayo, 566 U.S. at 72-73, 79). To be patent eligible,
the “inventive concept” must be “sufficient to ensure
that the patent in practice amounts to significantly more
than a patent upon the [ineligible concept] itself.” Id. at
72-73 (citing Parker v. Flook, 437 U.S. 584, 594 (1978)).
In determining the “sufficiency” of the inventive concept,
one must find specific claim elements that add significantly
more than what is merely “well-understood, routine,
conventional activity, previously engaged in by those in
the field.” Mayo, 566 U.S. at 71.
This Court has acknowledged that overly broad
interpretations of the judicial exceptions could “eviscerate
patent law” because “all inventions at some level embody,
use, reflect, rest upon, or apply laws of nature, natural
phenomena, or abstract ideas.” Mayo, 566 U.S. at 71.
Indeed, this Court has warned that “a process is not
unpatentable simply because it contains a law of nature
or a mathematical algorithm ... and an application of a law
of nature or mathematical formula to a known structure
or process may well be deserving of patent protection.”
Diehr, 450 U. S. at 187 (quoting Flook, 437 U.S. at 590);
see also Funk Bros. Seed Co. v. Kalo Inoculant Co., 333
U.S. 127, 130 (1948) (“If there is to be invention from

7
[a discovery of a law of nature], it must come from the
application of the law of nature to a new and useful end.”).
Further, this Court has instructed that claims must be
viewed as a whole to properly determine patent eligibility.
Mayo, 566 U.S. at 79-80 (citing Diehr, 450 U.S. at 187). The
two-part framework of Mayo and Alice should be applied
in a manner consistent with these guiding principles.
Amici curiae respectfully submit that the Federal
Circuit’s decision to deny rehearing en banc in this case
is in direct contradiction with this Court’s jurisprudence
under § 101. In particular, the panel majority’s fabrication
and use of its own “nothing more” test sidesteps proper
application of this Court’s two-part analytical framework
and is instead an exercise in outcome-driven jurisprudence.
The deep divide in the Federal Circuit over this new test
promises to add further confusion to its already muddled
case law post-Alice.
The Federal Circuit was evenly divided (6-6) on
whether to rehear this case en banc. Varying combinations
of the judges authored two opinions concurring in the
denial, and three opinions in dissent. In these opinions,
the judges offered divergent views of the Alice/Mayo
analysis. In particular, the judges argued over whether the
“nothing more” test introduced by the panel majority can
be substituted for this Court’s Mayo/Alice jurisprudence
to determine a claim’s validity.
According to the panel majority, a claim is directed
to “nothing more” than a natural law if it invokes a patent
ineligible concept to achieve a desired result and “contains
no information as to how to achieve the claimed result.” Pet
App., 160a-161a (Dyk, J., concurring) citing Rapid Litig.

8
Mgmt. Ltd. v. CellzDirect, Inc., 827 F.3d 1042, 1048 (Fed.
Cir. 2016). The majority and Judge Chen (concurring)
claimed that this rule is an application of the holding in
O’Reilly, 15 How. 62 (1854). But Judge Stoll argued that
the “nothing more” test is not derived from this Court’s
decision in O’Reilly, and offered that “the majority’s
‘nothing more’ test appears to be a new development
with potentially far-reaching implications in an already
uncertain area of patent law.” Pet App., 186a-187a
(Stoll, J., dissenting). Judge O’Malley agreed, noting
that the “nothing more” test “does not present a clearcut application of O’Reilly. It is, instead, an expansion
that would likely render ineligible claims found patent
eligible by the O’Reilly court itself.” Pet App., 194a-195a
(O’Malley, J., dissenting). Judge Newman also lamented
that “[t]he court’s new spin on Section 101 holds that when
technological advance is claimed too broadly, and the
claims draw on scientific principles, the subject matter
is barred at the threshold from access to patenting.” Pet
App., 174a (Newman, J., dissenting).
Amici curiae agree with Judges Stoll, O’Malley, and
Newman that the “nothing more” test is a new rule that
is not derived from O’Reilly, and note that the Federal
Circuit’s application of the rule directly contradicts
this Court’s proviso in Diehr that “a process is not
unpatentable simply because it contains a law of nature
or a mathematical algorithm.” 450 U. S. at 187 (quoting
Flook, 437 U.S. at 590). But whether the concurring or
dissenting judges are correct is only part of the problem.
The Federal Circuit has decided no fewer than 150 cases
on § 101 grounds since Alice in 2014. During that time,
there has been no shortage of confusing and conflicting
outcomes. See, e.g., Athena Diagnostics, 927 F.3d at

9
1367-1368 (Newman, J., dissenting) (providing a nonexhaustive list of inconsistent § 101 rulings by the Federal
Circuit). But in each of these cases, the Federal Circuit
could at least agree upon the framework being applied to
the claims at issue. Here, the fact that all twelve judges
could not agree about whether a new rule for determining
patent eligibility has been introduced is indicative of a
fundamental and irreconcilable divide in the Federal
Circuit. This Court’s timely direction and guidance is
clearly necessary.
II. The Federal Circuit’s Misapplication of the Alice/
Mayo Framework Would Render Invalid Patents
that have Stood as Pillars of Technological
Innovation
In denying rehearing en banc, the Federal Circuit
majority applied the “nothing more” test to claim 22 of
U.S. Patent No. 7,774,911 (“the ’911 patent”). The “nothing
more” test, as synthesized by Judge Chen, means that “a
claim may be held ineligible if it invokes a natural law to
achieve some desired result without reciting any further
limitations as to the means for accomplishing that result.”
Pet App., 163a (Chen, J., concurring). Despite protests
from the six dissenting judges, the six concurring judges
consented to the panel majority’s application of this
principle in view of the factual circumstances in O’Reilly
in order to declare claim 22 invalid. See Pet App., 158a
(Dyk, J., concurring).
Amici curiae submit that the amorphous and
arbitrary “nothing more” test can, and likely will, be
used to circumvent the framework set forth by this Court
in Alice and Mayo. Consequently, patents that would

10
pass muster under the Alice/Mayo analysis would fall
under the new analysis. Like Judges Stoll and Newman,
amici curiae believe that historical inventions that were
fundamental to America’s industrial revolution would be
unpatentable under the panel majority’s misguided test.
Pet App., 191a (Stoll, J., dissenting). To illustrate this
point, amici curiae have applied the panel majority’s
rationale to historical patents that are widely accepted as
being pillars of technological innovation, and have found
that the “nothing more” test would easily and consistently
render these patents invalid under § 101. It is therefore
critical that this Court intervene to clarify the eligibility
framework.
A.

Bell’s Telegraphy Patent would have been
Considered Invalid under Recent Federal
Circuit Application of § 101

On February 14, 1876, Alexander Graham Bell was
granted Letters Patent No. 174,465 to an “Improvement
in Telegraphy” (the Bell patent). 3
The claims of the Bell patent recite:
1. A system of telegraphy in which the receiver
is set in vibration by the employment undulatory
currents of electricity, substantially as set forth.
2. The combination, substantially as set forth,
of a permanent magnet or other body capable
of inductive action, with a closed circuit, so that
3. Although Bell used the term “telegraphy,” this invention
is directed to what became known as the telephone.

11
the vibration of the one shall occasion electrical
undulations in the other, or in itself, and this I
claim, whether the permanent magnet beset in
vibration in the neighborhood of the conductingwire form simultaneously be set in vibration in
each others neighborhood.
3. The method of producing undulations in a
continuous voltaic current by the vibration or
motion of bodies capable of inductive action, or
by the vibration or motion of the conductingwire itself, in the neighborhood of such bodies,
as set forth.
4. The method of producing undulations in
a continuous voltaic circuit by gradually
increasing and diminishing the resistance of
the circuit, or by gradually increasing and
diminishing the power of the battery, as set
forth.
5. The method of, and apparatus for, transmitting
vocal or other sounds telegraphically, as herein
described, by causing electrical undulations,
similar in form to the vibrations of the air
accompanying the said vocal or other sound,
substantially as set forth.
It is almost self-evident that these claims would be
readily invalidated if the same rationale used by the
panel majority were to be applied to them. According to
this rationale, one would only need to read the claims to
determine whether they invoke a natural law to reach a
desired result. Claim 1 of the Bell patent relies on one or

12
both of Ohm’s law (I = V/R) and Faraday’s law of induction
(ε = —N ΔΦ/Δt). For example, Bell’s patent states that:
Undulations are caused in a continuous voltaic
current by the vibration or motion of bodies
capable of inductive action; or by the vibration of
the conducting-wire itself in the neighborhood
of such bodies. Electrical undulations may
also be caused by alternately increasing and
diminishing the resistance of the circuit, or
by alternately increasing and diminishing the
power of the battery.

Bell patent, sheet 2, col. 2, ll. 42-50. Despite the fact that
Bell’s claim 1 does not explicitly recite voltage, resistance,
or inductance, this would not preclude the majority from
finding the claim invalid.
For example, in the American Axle proceedings
below, Judge Dyk acknowledged that “[c]laim 22 does
not name Hooke’s law, but the name is immaterial. The
Supreme Court has not required reciting the natural law
by name and has rejected a ‘draftsman’s art’ approach
to § 101 analysis.” Pet App., 159a (Dyk, J., concurring).
Accordingly, the “nothing more” test could be applied to
impute that claim 1 indeed invokes Ohm’s law or Faraday’s
law of induction in order to achieve a desired result –
transmitting sounds over a wire.
Claim 1 of the Bell patent also fails to recite any
further limitations regarding the means for accomplishing
the desired result. This is reminiscent of the panel majority
declining to give any weight to how claim 22 of the ‘911
patent requires a tuned liner to be inserted in a hollow

13
shaft member in order to achieve two types of vibration
damping (see Pet App., 188a (Stoll, J., dissenting)). In
Bell’s case, there would be no need to consider the claim
limitation that a “receiver is set in vibration” using
undulations in current. Instead, under the panel majority’s
rationale, claim 1 of Bell does not “provid[e] specific detail
as to the “how”—the means for achieving the result.”
Pet App., 154a-155a (Dyk, J., concurring) (citing Mayo,
566 U.S. at 71-73). Bell may have argued, as Judge Chen
did, that incorporating the specification with the phrase
“substantially as set forth” imbues the claim with a
description of how to achieve the desired result.4 See Pet
App., 164a-166a (Chen, J., concurring). But this Court
has rejected such an approach to § 101 analysis. Mayo,
566 U.S. at 72, 77. Accepting such an argument for the
Bell patent would result in practitioners simply adding
the phrase “substantially as set forth in the foregoing
description” to each claim, which would conflict with this
Court’s express intent in Mayo.
Under a similar rationale, claims 2-5 would inevitably
fall with claim 1, except that a court could apply only
Faraday’s law of induction to claims 2 and 3, could apply
only Ohm’s law to claim 4, and could apply both laws of
nature to claim 5.

4. It is well understood that claims are intended to be
construed in light of the specification. See, e.g., In re Marosi, 710
F.2d 799, 802, 218 USPQ 289, 292 (Fed. Cir. 1983) (“’[C]laims
are not to be read in a vacuum, and limitations therein are to
be interpreted in light of the specification in giving them their
‘broadest reasonable interpretation.’” (quoting In re Okuzawa,
537 F.2d 545, 548, 190 USPQ 464, 466 (CCPA 1976)).

14
Importantly, it is entirely likely that these claims
would be deemed valid under the Alice/Mayo analysis. In
particular, the “nothing more” analysis omits the full step
two of the Alice/Mayo framework. In the past, the Federal
Circuit had determined that claims similar to these
were allowable without questioning whether the claims
themselves teach “how” the judicial exception is used to
achieve a desired outcome.5 Rather, in such prior cases the
eligibility analysis turned on whether the claimed features
recited an application of a judicial exception.6
Here, the claims follow this Court’s mandates by
incorporating Ohm’s Law or Faraday’s law into such an
application – setting a telephone receiver into vibration. It
5. See, e.g., SRI International, Inc. v. Cisco Systems, Inc.,
930 F.3d 1295, 1303 (Fed. Cir. 2019) (concluding that the claim
at issue, which recited using a plurality of network monitors to
analyze specific network traffic data and integrate generated
reports from the monitors to identify hackers and intruders on
the network constituted an improvement in computer network
technology); Thales Visionix Inc. v. United States, 850 F.3d
1343, 1389-1349 (Fed. Cir. 2017) (determining that, though the
claims were recited in an outcome-oriented manner, “the claims
are directed to systems and methods that use inertial sensors
in a non-conventional manner to reduce errors in measuring the
relative position and orientation of a moving object on a moving
reference frame”); Bascom Global Internet Servs., Inc. v. AT&T
Mobility LLC, 827 F.3d 1341, 1338 (Fed. Cir. 2016) (concluding
that, while the claims were directed to the concept of “filtering”,
the claimed invention improved technology because the filtering
tool was installed at a specific location, remote from the end-users,
with customizable filtering features specific to each end user which
provided both the benefits of a filter at a local computer and on
an ISP server).
6. See id.

15
is well known that undulations in current have a multitude
of other practical implementations, including wired power
transfer, wireless data transfer, or information transfer
within a system. But these uses fall outside of the scope of
Bell’s claims. Accordingly, the claims recite significantly
more than any judicial exception and the Bell patent would
likely be valid under prong two of the Alice/Mayo test.
While the panel majority attempted to downplay the
concerns of some that our most innovative patents would
be rendered invalid under the “nothing more” test,7 it
is difficult if not impossible to avoid the conclusion that
the Bell patent could easily be deemed patent ineligible
if evaluated using the misguided rationale in American
Axle, despite these claims passing muster under this
Court’s Alice/Mayo analysis.
B. Edison’s Light Bulb Patent would have been
Considered Invalid Under Recent Federal
Circuit Application of § 101
On January 27, 1880, Thomas A. Edison was granted
Letters Patent No. 223,898 to an “Electric Lamp” (the
Edison patent).
The claims of the Edison patent recite:
1. A n electr ic lamp for g iv ing light by
incandescence, consisting of a filament carbon
7. Pet App., 157a (Dyk, J., concurring) (“The assertions
that the panel decision . . . calls into question the patentability of
basic inventions such as ‘the telegraph, telephone, light bulb, and
airplane’ are quite incorrect.”)

16
of high resistance, made as described, and
secured to metallic wires, as set forth.
2. The combination of carbon filaments with a
receiver made entirely of glass and conductors
passing through the glass, and horn which
receiver the air is exhausted, for the purposes
set forth.
3. A carbon filament or strip coiled and
connected to electric conductors so that only a
portion of the surface of such carbon conductors
shall be exposed for radiating light, as set forth.
4. The method herein described of securing the
platina contact-wires to the carbon filament and
carbonixin of the whole in a closed chamber,
substantially as set forth.
Just like Bell’s telephone patent, Edison’s claims could
be invalidated by applying the Federal Circuit’s “nothing
more” test. In so doing, the first and only step would be to
read the claim to determine that it invokes a natural law
to reach a desired result. In this case, the desired result
is itself a natural law. Incandescence is a special case of
thermal radiation wherein light from a heated body is
emitted in the visible spectrum. If that were not enough,
it could be recognized that claim 1 also invokes another
law to achieve this desired result - namely, the Joule-Lenz
law, which states that the power of heating generated
by an electrical conductor is proportional to the product
of its resistance and the square of the current. This
interpretation would be supported by the specification of
the Edison patent, which states that:

17
The invention consists in a light-giving body
of carbon wire or sheets coiled or arranged in
such a manner to offer great resistance to the
passage of the electric current, and at the same
time present but a light surface from which
radiation can take place.
...
The invention further consists in the method
of manufacturing carbon conductors of high
resistance, so as to be suitable for giving light
by incandescence.
Edison patent, sheet 1, col. 1, ll. 13-18 and 25-28.
Although the plain language of claim 1 refers to
neither current nor heat and therefore does not expressly
invoke the Joule-Lenz law, similar circumstances were not
a deterrent to the American Axle panel majority.8 Further
damning under the Federal Circuit’s “nothing more” test,
claim 1 of the Edison patent also fails to recite the means
for accomplishing the desired result.
Just as the majority declined to consider additional
features of the ‘911 patent, such as a tuned liner and a
hollow shaft member into which the liner is inserted in
order to achieve two types of vibration damping (see Pet
App., 188a (Stoll, J., dissenting)), a court could ignore
the recited “filament carbon of high resistance . . . and
secured to metallic wires” used to achieve incandescence.
Instead, under the panel majority’s rationale, claim 1 does
8. Pet App., 159a (Dyk, J., concurring) (“Claim 22 does not
name Hooke’s law, but the name is immaterial.”)

18
not “provid[e] specific detail as to the ‘how’—the means
for achieving the result.” Pet App., 154a-155a (Dyk, J.,
concurring) (citing Mayo, 566 U.S. at 71-73).
Claims 2-4 would be deemed patent ineligible under
a similar rationale. Although they include additional
features, none of these clarify how incandescence is
achieved. Accordingly, a court could determine that none
of these claims specify the means for achieving the result.
See id.
Contrary to the consequences of failing the Federal
Circuit majority’s “nothing more” test, these claims are
likely to be deemed valid under this Court’s Alice/Mayo
analysis. Edison’s claims clearly are not directed to a
natural law per se, but incorporate that law (the JouleLenz law) into an inventive concept: creating incandescent
light. It is well known that the Joule-Lenz law has a
multitude of other practical implementations, including
radiative heating, immersion heating, water heating, and
is used as the basis of operation of hot plates, clothes irons,
and soldering irons. Accordingly, the patent claims amount
to a specific application of a judicial exception rather than
encompassing just the judicial exception itself. Thus, the
Edison patent would be valid under prong two of this
Court’s Alice/Mayo test.
III. This is an Appropriate Case to Provide Clarity and
Guidance to Lower Courts
Since this Court’s decision in Alice, the Federal
Circuit has decided at least 150 cases on § 101 grounds.
These cases have introduced unresolved confusion about
the proper application of the Alice/Mayo framework,
contrary to the Federal Circuit’s mandate to clarify and

19
harmonize U.S. patent law. The result has been a long
list of contradictory panel decisions that are impossible
to reconcile with one another. 9 This situation has now
devolved into an even split of the Federal Circuit judges
who seem locked in an entrenched dispute over whether
the “nothing more” test is an appropriate method for
analyzing patent claims.
It is uncertain how lower courts and the U.S. Patent
and Trademark Office will interpret this test, risking
even more confusion, irreconcilable outcomes, and harm
to American innovation.10 It is therefore critical for this
9. See, e.g., Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709
(Fed. Cir. 2014) (holding claims grounded in internet technology
invalid) contra DDR Holdings, LLC v. Hotels.com, L.P., 773
F.3d 1245 (Fed. Cir. 2014) (holding similar claims valid); Trading
Technologies International, Inc. v. CQG, INC., 675 Fed.Appx.
1001 (Fed. Cir. 2017) (holding claims directed to a graphical user
interface valid) contra Trading Technologies International, Inc. v.
IBG LLC, 921 F.3d 1084 (Fed. Cir. 2019) and Trading Technologies
International, Inc. v. IBG LLC, 921 F.3d 1378 (Fed. Cir. 2019)
(holding similar claims invalid); Core Wireless Licensing S.A.R.L.
v. LG Electronics, Inc., 880 F.3d 1356 (Fed. Cir. 2019) (holding that
claims for a user interface were not directed to an abstract idea)
contra Move, Inc. v. Real Estate Alliance Ltd., 721 Fed.Appx. 950
(Fed. Cir. 2018) (holding that similar claims were directed to an
abstract idea and invalid); McRO, Inc. v. Bandai Namco Games
America Inc., 837 F.3d 1299 (Fed. Cir. 2016) (holding that claims
for automated animations of lip synchronization were not directed
to an abstract idea) contra RecogniCorp, LLC v. Nintendo Co.,
Ltd., 855 F.3d 132 (Fed. Cir. 2017) (holding claims for creating a
composite facial image were abstract and invalid).
10. Indeed, the Patent Office has set forth its own version of
the Alice/Mayo test for use by examiners that breaks step one of
this Court’s test into two sub-steps. See USPTO Manual of Patent
Examining Procedure, § 2106.04(II).

20
Court to clarify whether such a rule can be brought within
the existing framework for subject matter eligibility
analysis before the “nothing more” test is applied en
masse.
A.

In American Axle, the Federal Circuit has
provided a way to circumvent the Alice/Mayo
framework

The panel majority has circumvented a complete
analysis under Alice and Mayo in favor of creating an
analytical shortcut, a new rule based on an overbroad
characterization of O’Reilly that clashes with guiding
principles and ignores express warnings from this Court.
In doing so, the Federal Circuit has abandoned this
Court’s focus on preemption11 in favor of something more
akin to enablement: “the ‘how’—the means for achieving
the result.” Pet App., 154a-155a (Dyk, J., concurring)
(citing Mayo, 566 U.S. at 71-73). As demonstrated above,
the effect of this shift in perspective can render patents
invalid that previously would almost certainly have been
eligible under this Court’s Alice/Mayo framework. These
risks have been illustrated above by their unavoidable
consequence – rendering invalid some of the most
influential, iconic, and groundbreaking inventions in this
nation’s history. To prevent such disastrous and untenable
outcomes when this rule is applied to further patent claims
(as it will be unless corrected promptly), this Court should
grant certiorari in this case.
11. Alice, 573 U.S.at 216 (2014) (“[T]he concern that drives
this exclusionary principle [is] one of preemption”).; see also Mayo,
566 U.S. at 85 (“The Court has repeatedly emphasized ... a concern
that patent law not inhibit further discovery by improperly tying
up the future use of laws of nature”).

21
B. This case represents an opportune vehicle to
provide clarity in proper application of § 101
The American Axle claims recite steps unknown in
the prior art that rely on novel techniques to produce
a superior product. Practicing the claimed invention
provides a beneficial result not found in the prior art.
While relying on natural laws as all inventions must, the
‘911 patent does more than just recite a natural law and
instruct the skilled person to “apply it.” Mayo, 566 U.S.
at 72. Indeed, the structure of the American Axle claims
resemble, even if they are not as influential as, those that
defined the telephone and the light bulb.
The inventors of the ’911 patent discovered a
previously unknown manufacturing technique for
dampening vibrations in a drive shaft. This innovation
was so beneficial, and was spelled out in the patent in such
careful detail, that a competitor used the claimed process
to create a competing product, which is the subject of the
litigation at hand.
The claimed method is limited in scope. Accordingly,
there is no concern that it preempts the public’s use of
Hooke’s law (though it is not clear that the Federal Circuit
identified the correct natural law). If new methods of
damping vibrations in a drive shaft are discovered at a
later date, they can be freely practiced without infringing
American Axle’s claims. If future research discovers
a new material for use in constructing a vibration-free
drive shaft, or that a vibration-attenuating device can be
attached to the outside of a drive shaft, or that a different
shape of drive shaft reduces vibrations, such an application
would not be preempted by the claims in the ’911 patent.

22
Proper application of this Court’s patent eligibility
framework reveals that American Axle’s method-ofmanufacturing claims, like those in Diehr, may rely on a
natural phenomenon, but do not entirely preempt use of
the natural phenomenon. This case provides an ideal and
timely opportunity to clarify the framework of patent
eligibility and its proper application.
CONCLUSION
The guiding principle of this Court’s Alice/Mayo
two-part framework is to exclude claims that preempt
the public’s use of a law of nature, natural phenomenon,
or abstract idea because such claims impede progress
in the useful arts. The Federal Circuit’s misapplication
of the Alice/Mayo two-part framework in its American
Axle decision disregards this purpose and has resulted
in disincentives for skilled artisans to develop new and
useful inventions.
The deep divide in the Federal Circuit over how to
properly apply this Court’s patent eligibility test and that
court’s plea for guidance demonstrate that this issue will
not be resolved without direct intervention by this Court.
Accordingly, the amici curiae urge this Court to grant
American Axle’s petition for a writ of certiorari.

23
Respectfully Submitted,
Kevin E. Noonan, Ph.D.
Counsel of Record
Michael S. Borella, Ph.D.
A aron V. Gin, Ph.D.
A dnan M. Obissi
McDonnell Boehnen Hulbert &
Berghoff LLP
300 South Wacker Drive, Suite 3100
Chicago, IL 60606
(312) 913-0001
noonan@mbhb.com
Counsel for Amici Curiae
February 4, 2021

